APPENDICES

1a
APPENDIX A
PUBLISHED

UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 15-4433
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
HASSAN SHARIF ALI, a/k/a Big Hassan,
Defendant-Appellant.
Appeal from the United States District Court for the
Middle District of North Carolina, at Greensboro.
Catherine C. Eagles, District Judge.
(1:14-cr-00362-CCE-1)
Argued: January 29, 2021
Decided: March 19, 2021
OPINION
Affirmed by published opinion. Judge Wilkinson wrote
the opinion, in which Judge Niemeyer and Judge
Thacker joined.
* * *

2a
Before WILKINSON, NIEMEYER, and THACKER,
Circuit Judges.
WILKINSON, Circuit Judge:
Defendant Hassan Ali led a band of thieves on a
spree of armed robberies in July 2013. A jury found him
guilty of four counts of aiding and abetting Hobbs Act
robbery, 18 U.S.C. §§ 2, 1951(a), four counts of carrying
a firearm in connection with a crime of violence, id.
§ 924(c), and one count of possession of a firearm by a
convicted felon, id. §§ 922(g)(1), 924(a)(2). On appeal, Ali
brings three claims. He argues that the district court
abused its discretion by refusing to sequester the codefendant witnesses and by denying his motion for a new
trial. He also claims that the uncertainty as to the predicate offenses for the § 924(c) convictions renders them
invalid. We affirm the judgment of the district court.
I.
A.
In April 2013, Ali had debts that he could not repay. To solve this problem, he texted someone to
whom he owed money that he was going to “go rob
something.” J.A. 532. Ali then planned the robberies
with the four co-defendants in this case: Rodney Frazier, John Griffin, Jr., Hassan Hassan, and Kelvin Jacobs, Jr. Although these four men were not all wellacquainted with each other, Ali knew and brought all of
them together for the robberies.
Ali first gathered with Hassan, Jacobs, and a few
other men a couple of days before July 7 to plan the
robbery of a Food Lion grocery store on Golden Gate
Drive in Greensboro, North Carolina. Ali assigned
roles to each co-conspirator and told them where to be
for the robbery. On July 7, Jacobs made a diversionary

3a
call, Hassan served as lookout, and Griffin went into the
store shortly before 11 p.m. After entering the store,
Griffin threatened the clerk with his gun, forced her to
open the safe, took the approximately $800 within it,
and fled the store. Later, Ali divided up the money.
On July 15, the crew robbed the Food Lion on
Drawbridge Parkway. It followed the same pattern as
the first robbery except with Frazier accompanying
Griffin into the store to get the money. They grossed
approximately $1,000 from the theft, and Ali again distributed the money afterward.
This pattern continued at the robbery of Jenny’s
Beauty, a Greensboro beauty salon, on July 20. The
fourth and final robbery was of a Brink’s armored truck
in the parking lot of a SunTrust Bank branch on
Eastchester Drive in High Point, North Carolina. In
preparation for the robbery, Frazier stole a van, so
they would not need to use their own cars. On July 25,
Griffin drove the stolen van to the bank with Frazier
and Ali. Jacobs again called 911 to send the police to a
different location. Hassan monitored a police scanner
in a separate car. Griffin and Ali, wielding firearms,
jumped out of the van when the Brink’s truck arrived.
Griffin put a handgun to the guard and grabbed a bag of
money. On the other side of the truck, Ali grabbed another bag and approached the second Brink’s employee,
Paytric Bratcher, with a shotgun. Bratcher drew his
handgun and fired five times at Ali. Ali dropped his
shotgun and the money bag and ran. Ali and Griffin
met Frazier in the getaway car and left the scene. Later, Ali divided the $68,000 in cash they stole.
The five men were indicted on September 30, 2014.
Before trial, all four of Ali’s co-defendants accepted
plea agreements offered by the government. In ex-

4a
change for their testimony at Ali’s trial, the government dropped some of the charges against them—three
of the eight against Griffin, three of the six against Jacobs, one of the four against Frazier, and four of the
eight against Hassan.
B.
Ali’s trial began on January 5, 2015. On the first day
of trial, the government put on law enforcement witnesses, the Brink’s employees, and other non-codefendant witnesses. The next morning, Griffin was the
second person to testify. He discussed the planning and
execution of all four robberies and detailed the roles Ali
and each co-defendant played in the series of crimes.
After Griffin finished and returned to the holding
cell, the defense counsel requested a conference at the
bench. Defense counsel was concerned that Griffin
would go back to his cell and talk about his testimony
with the other co-defendants. The court recognized
that “[t]hey ought to be sequestered” and said that it
would take care of it at the break, to which there was
no objection. J.A. 328. Then, the government called its
next witness.
The court recessed after that witness, excused the
jury, and discussed the co-defendants’ custodial arrangements with counsel. The marshal explained that
Frazier and Jacobs were in one cell, Griffin and Hassan
were in an adjacent cell, and Ali was in a third cell. J.A.
333-34. Defense counsel expressed concern that—given
the co-defendants’ proximity—they would discuss their
testimony and “know which questions [we]re being
asked.” J.A. 334. Since the co-defendants were scheduled to take the stand intermixed with other witnesses
throughout the trial, the court found that it could not
ensure that they would not be in the holding cells to-

5a
gether. Given the limited holding space in the building,
the court concluded that there was no arrangement
that would keep all co-defendants out of talking distance with each other.
After summoning Griffin’s attorney to the conference, the court inquired whether Griffin would be
needed at any point that afternoon or if he could instead be returned to the Greensboro Jail. Griffin’s attorney and the government’s attorney acquiesced in
sending him away, but Ali’s attorney said he was unsure whether he would need to call him later that day.
The court concluded that Griffin would need to be kept
in the courthouse for the remainder of the day.
The judge then informed counsel that she would
“instruct the rest of the witnesses not to discuss their
testimony with other witnesses after they g[o]t off the
witness stand.” J.A. 336. She asked Griffin’s attorney
to tell his client the same. She also requested that the
attorney help her remember to give that instruction to
the other co-defendants after they testified. Defense
counsel did not object to this course of action.
Subsequently, the jury returned from recess, and
the government called five more witnesses. When the
court dismissed the jury for lunch, it told the marshal
that Griffin would not be needed for the day and thus
could be returned to jail. Neither counsel commented
on this instruction. After lunch, the government called
Jacobs to the stand. He testified as to the organization,
planning, and execution of the two Food Lion robberies
and the Brink’s armored car robbery. He neither participated in nor knew about the beauty salon robbery.
On cross-examination, Jacobs testified that he had not
talked to Frazier about the case while they were being
held in the courthouse that day. He also said that he had

6a
never talked to either Frazier or Griffin about the case.
After the government finished re-direct, the court released Jacobs for the day but failed to instruct him not to
discuss his testimony with the other co-defendants. The
government called nine other witnesses before the court
adjourned for the day. The court confirmed with counsel
that Jacobs and Griffin would not be needed at the
courthouse for the third day of trial.
The next day, Frazier was the fourth witness to
testify. Frazier discussed the planning and execution of
the Drawbridge Food Lion robbery and the Brink’s
robbery. He explained what each man did during the
robberies, what weapons were used, and how the money was divided up afterward. On cross-examination,
Frazier said that he was in a holding cell with Jacobs,
Griffin, and Hassan but they did not discuss the case or
their testimony. J.A. 601. When Frazier finished testifying, the court did not instruct him not to discuss his
testimony or the questions he was asked with his codefendants.
Following Frazier, one police officer testified briefly and then the government called Hassan to the stand.
Hassan testified as to the planning and execution of all
four robberies. On cross-examination, defense counsel
asked Hassan about his custodial arrangements while
he was waiting to testify. Hassan said he had shared a
cell with Griffin the day before, and Griffin told him
who was present in the courtroom but said nothing
about the case. J.A. 639-40.
The government’s final witness was an FBI expert
in cell site location analysis. He plotted the data for the
phone numbers associated with Ali and his four codefendants on maps. These maps showed the men together at the planning house before the robberies, at

7a
the robbery sites when those robberies took place, and
reunited after the robberies.
Consulting with counsel, the court finalized the jury instructions and verdict form. All agreed on a general verdict form that included only “guilty” and “not
guilty” for each count without use of a special interrogatory for the jury to mark the theory of guilt. The
court explained to the jury that the defendant could be
found guilty of Hobbs Act robbery under either an aiding-and-abetting theory or a conspiracy theory. For
the § 924(c) charges, she said that the “crime of violence” element could be satisfied by a guilty verdict on
the robbery charges under either theory of guilt. The
jury found Ali guilty on all counts.
C.
Following the trial, Ali had some disagreements
with his attorney and began filing motions for acquittal
and a new trial pro se. On March 11, 2015, he filed a
motion for a judgment of acquittal and a motion for a
new trial. Later in March, the court assigned replacement counsel. In May, the court denied his second
counsel’s request to withdraw as well as Ali’s pro se
motions. In June, Ali’s attorney filed a second motion
to withdraw.
A few weeks later, Ali filed another pro se motion
for a judgment of acquittal and motion for a new trial.
Attached to this motion was a handwritten declaration
by Zeb Maggard, who alleged he was held at the courthouse with Ali’s co-defendants on January 6 and 8. He
claimed that “on both days these witnesses talked
about their case and testimonies with each other.” J.A.
990. He said they talked to each other “about how
[their] testimony went” and “share[d] with them the
questions and … answers.” J.A. 990.

8a
At the sentencing hearing, the court granted the
motion to withdraw and allowed Ali to proceed pro se.
The court considered Ali’s motions for a judgment of
acquittal and a new trial, permitted him to present argument on them, and rejected the first motion with explanation and the second motion summarily. Ali was
sentenced to total of 1,195 months of imprisonment:
235 months on each Hobbs Act robbery charge, to run
concurrently; 60 months on the first § 924(c) charge and
300 months on each of the second, third, and fourth §
924(c) charges, all to run consecutively to each other
and all other charges; and 120 months on the felon-inpossession charge, to run concurrently to the Hobbs
Act robbery charges. Ali timely appealed, and we have
jurisdiction pursuant to 28 U.S.C. § 1291.
II.
On appeal, the defendant raises three assignments
of error. First, he claims the district court erred when
it failed to separate the co-defendants while they were
being held together at the courthouse awaiting their
turn to testify. We review evidentiary matters such as
the district court’s sequestration order for abuse of discretion. United States v. Rhynes, 218 F.3d 310, 315 (4th
Cir. 2000) (en banc) (plurality opinion).1

1

The defendant argues that this issue should be reviewed de
novo. Appellant’s Reply Br. at 1. His suggestion that Rhynes requires de novo review of a sequestration order conflates review of
that order with review of the district court’s interpretation of the
Federal Rules of Evidence. Rhynes does require de novo review
of “a district court’s legal interpretation of federal rules,” 218 F.3d
at 320, but that is not the same as review of a sequestration order,
which is an evidentiary ruling, see id. at 315.
Furthermore, an abuse of discretion review is the approach
taken by our sister circuits in such circumstances. See, e.g., United

9a
A.
Federal Rule of Evidence 615 governs the exclusion and sequestration of witnesses at trial. It requires
the district court at the request of a party to “order
witnesses excluded so that they cannot hear other witnesses’ testimony.” Fed. R. Evid. 615. This rule exists
“to prevent the possibility of one witness shaping his
testimony to match that given by other witnesses at
the trial.” United States v. Leggett, 326 F.2d 613, 613
(4th Cir. 1964). Rule 615 itself “serves only to exclude
witnesses from the courtroom.” Rhynes, 218 F.3d at
316 (plurality opinion). This interpretation follows
common sense because it is only in the courtroom that a
witness’s speech is “testimony.” When a court has denied a request to remove a witness from the courtroom,
we have not required the defendant to show prejudice
but rather have applied the rule “strictly” and vacated
the conviction. United States v. Farnham, 791 F.2d
331, 335-36 (4th Cir. 1986); see also Opus 3 Ltd. v. Heritage Park, Inc., 91 F.3d 625, 628 (4th Cir. 1996) (“[W]e
construe the rule's exemptions ‘narrowly in favor of the
party requesting sequestration.’ ” (quoting Farnham,
791 F.2d at 335)). The Farnham court explained that
this presumption of prejudice was necessary because it
would be “almost impossible [for the defendant] to susStates v. Engelmann, 701 F.3d 874, 877 (8th Cir. 2012) (“Sequestration of most witnesses is mandatory when requested, but the
district court is granted wide latitude in implementing sequestration orders, and the standard of review is abuse of discretion.”
(quoting United States v. Collins, 340 F.3d 672, 680 (8th Cir.
2003))); United States v. Jackson, 60 F.3d 128, 135 (2d Cir. 1995)
(discussing trial judge’s discretion in this sphere); United States v.
Solorio, 337 F.3d 580, 592 (6th Cir. 2003); see also 4 Jack B. Weinstein & Margaret A. Berger, Weinstein’s Federal Evidence
§ 615.07 (2d ed. 1997) (collecting cases). We see no reason to diverge.

10a
tain the burden of proving the negative inference that
the second [witness’s] testimony would have been different had he been sequestered.” 791 F.2d at 335.
When the complained-of conduct falls outside the
Rule’s text, however, this presumption does not apply.
District courts frequently employ their discretionary
authority to strengthen their sequestration orders outside of the courtroom. See, e.g., Rhynes, 218 F.3d at 316
(plurality opinion) (discussing district court’s instruction “that witnesses were not to discuss their testimony
with one another”); United States v. Headman, 594
F.3d 1179, 1181 (10th Cir. 2010) (same); United States v.
Sepulveda, 15 F.3d 1161, 1176 (1st Cir. 1993) (“Outside
of the heartland, the district court may make whatever
provisions it deems necessary to manage trials in the
interests of justice, including the sequestration of witnesses before, during, and after their testimony … ”);
see also 4 Weinstein & Berger, supra, § 615.06. In such
circumstances, we have not presumed prejudice and
have required a greater showing by the defendant that
he was harmed by out-of-courtroom conversations between witnesses. See United States v. Harris, 39 F.3d
1262, 1268 (4th Cir. 1994). Several sister circuits have
done the same. See Engelmann, 701 F.3d at 878 (remanding for an evidentiary hearing when there were
no factual findings on which to determine prejudice);
Solorio, 337 F.3d at 594 (requiring defendant to show
prejudice); United States v. Green, 293 F.3d 886, 891-92
(5th Cir. 2002) (same); Virgin Islands v. Edinborough,
625 F.2d 472, 474 (3d Cir. 1980) (same).
The reasons for this different treatment are manifold. First, the Rule’s text mandates courtroom exclusion of witnesses upon request; it leaves no discretion
to the district court. Any further measures, however,
imposed by the court are matters of discretion, not of

11a
right, and thus deserve the kind of deference we generally afford to questions of trial management. See, e.g.,
United States v. Smith, 452 F.3d 323, 333-34 (4th Cir.
2006). Second, hearing in real time the lawyers’ questions and the witnesses’ responses presents the scenario most susceptible to the sort of testimonial tailoring
that the court cannot remedy. But when witnesses are
relying on memory during out-of-court conversations,
they are more likely to transmit mistaken or incomplete recollections and thus more likely to be caught on
a thorough cross-examination by the defendant’s lawyer. Finally, this differential treatment aligns with our
approval of different remedies for violations of a sequestration order depending on the circumstances and
the severity of the violation. See Rhynes, 218 F.3d at
322-23 (approving sanctioning the witness, corrective
jury instructions, and broad cross-examination as possible remedies). We have even upheld a criminal contempt conviction for a witness whose violation of a sequestration order was willful. See United States v.
McMahon, 104 F.3d 638 (4th Cir. 1997). This regime
makes sense only in the context of treating core Rule
615 violations differently from violations at the Rule’s
periphery.
B.
With this framework in mind, we review the circumstances surrounding Ali’s trial. No witness was in
the courtroom while another was testifying, so the presumption of prejudice to the defendant under Rule 615
no longer applies. Thus we review the district court’s
actions for abuse of discretion.
Ali complains that the district court did not do
enough to prevent his co-defendants from discussing
their testimony with each other after they left the

12a
stand and returned to the courthouse’s holding area.
Faced with the building’s limited space to hold the codefendants, the trial court recognized the potential for
the co-defendants to speak with each other. She thus
instructed the attorney for the first witness to testify
(Griffin) to tell his client not to speak about his testimony with his co-defendants. She also offered to have
Griffin sent back to the jail. Neither the government
nor Griffin’s counsel opposed sending him away from
the courthouse, but Ali’s counsel objected because he
was uncertain whether he would need to call Griffin.
Ali cannot complain after the trial or on appeal
about something he had the express opportunity to
prevent. Sending Griffin back to jail after his testimony, as the district court offered, would have addressed
Ali’s concerns without prejudicing the presentation of
his case. Granting relief on Ali’s claim would encourage
gamesmanship—that is, a defense counsel remaining
silent rather than objecting to a supposed error. See,
e.g., Puckett v. United States, 556 U.S. 129, 134 (2009)
(discussing the problems caused by defense counsel
“remaining silent about his objection and belatedly raising the error only if the case does not conclude in his
favor”). Allowing defendants to claim error after raising an issue with the trial judge and rejecting her reasonable solution would encourage litigants not to accept
sensible accommodations and discourage trial participants from working together to devise practical solutions to difficult problems of witness location.
Furthermore, the opportunities that the codefendant witnesses had to communicate with each
other after testifying were limited. Griffin remained in
the courthouse’s holding cells only from the completion
of his testimony before the morning recess until the
lunch recess, when he was, in fact, sent back to jail. Ja-

13a
cobs testified in the afternoon, so he too was in the
holding cell with Frazier and Hassan for only a limited
amount of time from the end of his testimony to the end
of the day. The following day only Frazier and Hassan
were brought to the courthouse. There was only one
short witness between their turns on the stand—again
providing limited time for any collaboration.
Finally, the district court made appropriate allowances for defense counsel to cross-examine the codefendants about whether they colluded on their testimony. This is one of the remedies this court has endorsed for addressing potential violations of sequestration orders. See United States v. Smith, 441 F.3d 254,
263 (4th Cir. 2006). And Ali’s counsel took full advantage of his right to cross-examine the codefendants. Asked whether he had talked to Frazier in
the holding cell, Jacobs answered, “Not pertaining to
the case.” J.A. 426. And when asked whether he had
ever talked to Griffin about the case, Jacobs said he had
not. J.A. 427. Frazier also confirmed that he shared a
holding cell with Jacobs, Griffin, and Hassan the previous day, but that they had not talked about the case.
J.A. 601. When defense counsel questioned Hassan, he
responded that Griffin had told them who was in the
courtroom, but no one had talked about the case. J.A.
639-40. At no point did the district court curtail defense counsel’s investigation of either possible collusion
or the plea bargains the co-defendants had struck with
the government.
This was not the easiest situation in the world to
manage, what with four co-defendant witnesses and
limited holding cells. In the context of defendant’s requests and the building’s constraints, the district judge
handled this issue with care. At no point did Ali move
for a mistrial or request a limiting instruction with re-

14a
gards to sequestration. And as noted, the court suggested removing Griffin from the building and allowed
fulsome cross-examination. This was a fully sufficient
response to Ali’s request and we thus find no abuse of
discretion here.
III.
Second, Ali claims that the district court erred by
denying his motion for a new trial based on new evidence. We review the district court’s decision for abuse
of discretion. United States v. Lighty, 616 F.3d 321, 374
(4th Cir. 2010).
A.
Trial courts may vacate convictions “and grant a
new trial if the interest of justice so requires.” Fed. R.
Crim. P. 33(a). However, these are highly disfavored
motions that a court should grant only “sparingly.”
United States v. Palin, 874 F.3d 418, 423 (4th Cir. 2017)
(quoting United States v. Arrington, 757 F.2d 1484,
1486 (4th Cir. 1985)). This follows from the historic respect that the Anglo-American legal system has had for
a verdict by a jury of one’s peers. See, e.g., United
States v. Powell, 469 U.S. 57, 65-69 (1984) (respecting
finality of jury verdict despite possible inconsistencies);
Sparf v. United States, 156 U.S. 51, 88 (1895) (“The law
throws upon [the jury] the whole responsibility of ascertaining facts in dispute, and the judge does not attempt to interfere with the exercise of their unfettered
discretion in this respect.”); see also Matthew Hale, The
History of the Common Law of England 260 (3d ed.
1739) (explaining that one virtue of the jury trial is its
“unanimous Suffrage and Opinion of Twelve Men,
which carries in itself a much greater Weight … to discover the Truth of a Fact, than any other Trial whatsoever”).

15a
Defendant suggests that the district court’s failure
to give an explanation directly responsive to his motion
entitles him to de novo review. This contention is incorrect. Unlike in sentencing, the district court does
not need to expound upon its reasoning in its denial of a
new trial motion. See, e.g., United States v. Fowler, 948
F.3d 663, 668 (4th Cir. 2020) (noting that sentencing
court is required “to adequately explain the chosen sentence … to allow for meaningful appellate review”
(quoting Gall v. United States, 552 U.S. 38, 50-51
(2007)). Even when the transcript does not explicitly
show as much, “[t]rial judges are presumed to know the
law and to apply it in making their decisions.” Walton
v. Arizona, 497 U.S. 639, 653 (1990), overruled on other
grounds by Ring v. Arizona, 536 U.S. 584 (2002). And
on appeal, “[w]e are not limited to evaluation of the
grounds offered by the district court to support its decision, but may affirm on any grounds apparent from
the record.” United States v. Smith, 395 F.3d 516, 519
(4th Cir. 2005).
B.
To succeed on a Rule 33 motion based on new evidence, “a defendant must satisfy a five-part test by
showing that (1) the evidence is newly discovered; (2)
the defendant exercised due diligence; (3) the newly
discovered evidence is not merely cumulative or impeaching; (4) the evidence is material; and (5) the evidence would probably result in acquittal at a new trial.”
United States v. Moore, 709 F.3d 287, 292 (4th Cir.
2013) (citing United States v. Chavis, 880 F.2d 788, 793
(4th Cir. 1989)) (“Chavis Test”). Since “[t]he defendant
must satisfy all five prongs,” United States v. Christy, 3
F.3d 765, 768 (4th Cir. 1993), we focus on how he does
not meet the first and the third.

16a
Ali presents two relevant pieces of new evidence: a
sworn declaration by himself recounting what he overheard in custody (Ali Declaration) and a sworn declaration of Zeb Maggard, who claimed to be in the same
cellblock at the courthouse as the co-defendant witnesses (Maggard Declaration). See J.A. 883-84, 990.
We can dispose of the Ali Declaration promptly because
it is not newly discovered evidence. Although the declaration was filed after the trial, its assertions are nothing more than Ali’s observations during the trial.
These observations were not new evidence because Ali
was aware of them during trial and even claimed to
have brought them to his counsel’s attention. Thus, the
Ali Declaration fails to meet the first prong of the
Chavis Test.
The Maggard Declaration fails to satisfy the third
Chavis prong because it is merely impeachment evidence. Such evidence “go[es] only to the credibility of a
witness” and “does not generally warrant the granting
of a new trial.” United States v. Custis, 988 F.2d 1355,
1359 (4th Cir. 1993) (citing United States v. Stockton,
788 F.2d 210, 220 (4th Cir. 1986)). Here the Maggard
Declaration calls into question the credibility of the codefendants’ claims that they did not discuss their testimony when they were being held at the courthouse.
See J.A. 990. This “evidence does not directly support
some alternate theory of the crimes, nor does it provide
any legal justification for” Ali’s actions. United States
v. Robinson, 627 F.3d 941, 949 (4th Cir. 2010). Rather,
the Maggard Declaration merely calls into question the
co-defendants’ honesty on an issue orthogonal to the
defendant’s guilt. See id. This is classic impeachment
evidence that cannot satisfy the third prong of the
Chavis Test.

17a
Given the ample evidence that was adduced at trial
against the defendant, the “new” evidence that Ali
proffered in support of his Rule 33 motion came very
late in the day (over four months after the trial ended)
and would have hardly made any kind of difference.
The district court ran a good trial, and there was absolutely no reason to do it over with all the drawbacks
that retrials entail. We cannot countenance “fishing
expeditions into the backgrounds of witnesses and insubstantial Rule 33 motions resulting therefrom” because they “deprive witnesses of a decent sense of closure and undermine the finality of criminal proceedings
to an unacceptable degree.” Id. Thus, we find that the
district court did not abuse its discretion and affirm the
denial of Ali’s motion for a new trial.
IV.
The final issue on review is whether the invalidity
of one of the two theories of guilt in the jury instructions on the § 924(c) charges undermines the conviction.2 Since the defendant did not object to the instructions at trial, we review for plain error. See United
States v. Cowden, 882 F.3d 464, 475 (4th Cir. 2018).
This requires Ali to “show (1) that the court erred, (2)
that the error is clear and obvious, and (3) that the error affected his substantial rights, meaning that it ‘affected the outcome of the district court proceedings.’ ”
United States v. Catone, 769 F.3d 866, 871 (4th Cir.
2

Section 924(c) provides for the punishment of persons who
use or carry a firearm in, or possess a firearm in furtherance of, a
crime of violence or a drug trafficking crime.
18 U.S.C.
§ 924(c)(1)(A). This subsection defines a crime of violence as a felony that “has as an element the use, attempted use, or threatened
use of physical force against the person or property of another.”
Id. § 924(c)(3)(A).

18a
2014) (quoting United States v. Olano, 507 U.S. 725,
732-34 (1993)). Even if all three elements are established, we do not correct the error unless it “seriously
affects the fairness, integrity or public reputation of judicial proceedings.” United States v. Massenburg, 564
F.3d 337, 343 (4th Cir. 2009) (quoting Olano, 507 U.S. at
732).
A.
When the district court instructed the jury on the
Hobbs Act robbery charges and the § 924(c) charges, it
told the jury that Ali could be found guilty under either
one of two theories. For Hobbs Act robbery, he could
be found guilty “because he … aided and abetted the
crime of interfering with commerce by robbery” or “because he conspired with others to commit that crime.”3
J.A. 790. The court said that the government did not
need to prove both; rather “[o]ne [wa]s sufficient.” J.A.
790. The court then explained the requirements for
proving each theory. See J.A. 791-93. Next, the court
turned to the first § 924(c) charge and instructed that
the crime of violence element would be met if Ali had
either “knowingly conspired to commit” Hobbs Act
robbery “or aided and abetted in the commission of the
robbery.” J.A. 794-95. The court followed this pattern
on the remaining counts.

3

“Whoever in any way or degree obstructs, delays, or affects
commerce or the movement of any article or commodity in commerce, by robbery or extortion or attempts or conspires so to do,
or commits or threatens physical violence to any person or property in furtherance of a plan or purpose to do anything in violation of
this section shall be fined under this title or imprisoned not more
than twenty years, or both.” 18 U.S.C. § 1951(a). The defendant
was specifically charged with robbery, not extortion, in this case.

19a
Ali claims that the district court’s instructions to
the jury were improper because one of the two theories
of guilt could not serve as a valid predicate for § 924(c).
This was so because Hobbs Act conspiracy was not a
crime of violence as required by the statute. To determine whether an offense qualifies as a “crime of violence,” we apply either the categorical approach or the
modified categorical approach. United States v. Fuertes, 805 F.3d 485, 498 (4th Cir. 2015). We employ the
categorical approach for indivisible statutes—those
“not containing alternative elements” such that “the
jury need not agree on anything past the fact that the
statute was violated.” Id. (quoting Descamps v. United
States, 570 U.S. 254, 258 (2013); Rendon v. Holder, 764
F.3d 1077, 1085 (9th Cir. 2014)). We use the modified
categorical approach for divisible statutes—those “that
list[] ‘potential offense elements in the alternative,’ and
thus include[] ‘multiple, alternative versions of the
crime.’ ” United States v. Bryant, 949 F.3d 168, 173
(4th Cir. 2020) (quoting Descamps, 570 U.S. at 260,
262). Since the offenses supporting each theory of guilt
are indivisible, we must apply the categorical approach
to each to determine whether they are crimes of violence capable of supporting a § 924(c) charge.
First, we turn to the theory of Hobbs Act conspiracy. There is no room for doubt that there was an instructional error here. After the trial, we held that
conspiracy to commit Hobbs Act robbery is not categorically a crime of violence and thus cannot serve as a
valid predicate for a § 924(c) charge. See United States
v. Simms, 914 F.3d 229, 233 (4th Cir. 2019) (en banc).
This is so because conspiracy requires only that the
government prove an agreement “to commit actions
that, if realized, would violate the Hobbs Act,” but
“[s]uch an agreement does not invariably require the

20a
actual, attempted, or threatened use of physical force.”
Id. at 233-34. Thus, under the categorical approach,
conspiracy can no longer serve as a valid predicate, and
the district court’s instruction that it could was in error.
It is equally clear that the error was plain. An error is plain if, “at the time of appellate consideration[,]
… the settled law of the Supreme Court or this circuit
establishes that an error has occurred.” United States
v. Ramirez-Castillo, 748 F.3d 205, 215 (4th Cir. 2014)
(internal quotation marks and citations omitted). Since
Simms established for this circuit that Hobbs Act conspiracy is not a crime of violence, we conclude that the
instructional error was plain.
B.
The second theory of guilt, however, was a valid
predicate for Ali’s § 924(c) charges. Although we have
yet to address whether aiding or abetting Hobbs Act
robbery is a crime of violence that satisfies § 924(c)’s
force clause, we have held that Hobbs Act robbery itself is a crime of violence. See United States v. Mathis,
932 F.3d 242, 265-66 (4th Cir. 2019). Thus, we need only
determine whether aiding and abetting a crime of violence also qualifies.
In the context of the Immigration and Nationality
Act (INA), Pub. L. No. 82-414, 66 Stat. 163 (1952), as
amended, 8 U.S.C. § 1101 et seq., the Supreme Court
has already answered an analogous question in the affirmative. See Gonzales v. Duenas-Alvarez, 549 U.S.
183 (2007). Like § 924(c), the INA requires the use of
the “categorical approach” established in Taylor v.
United States, 495 U.S. 575 (1990), to determine whether a particular conviction “falls within the scope of a
listed offense” that makes an alien subject to removal.

21a
Duenas-Alvarez, 549 U.S. at 185-86; see Fuertes, 805
F.3d at 498. Mirroring the setup of the case at bar, the
underlying state predicate in Duenas-Alvarez satisfied
the categorical approach and the Supreme Court had
only to determine whether aiding and abetting that
crime was also a categorical match. See 549 U.S. at 18889. The Court explained that, during the twentieth
century, all fifty states and the federal government had
“ ‘ expressly abrogated the distinction’ among principals
and aiders and abettors” who either helped before the
criminal act or were “present at the scene of the crime.”
Id. at 189 (quoting 2 Wayne LaFave, Substantive Criminal Law § 13.1(e), at 133 (2d ed. 2003)). Thus, since the
law generally treats aiders and abettors the same as
principals, the categorical approach must as well. See
id. at 190.
That decision coheres with the principles of federal
aiding and abetting law under 18 U.S.C. § 2.4 Aiding
and abetting is not a standalone criminal offense—
rather, it “simply describes the way in which a defendant’s conduct resulted in the violation of a particular
law.” United States v. Ashley, 606 F.3d 135, 143 (4th
Cir. 2010). Section 2 “does not set forth an essential element of [an] offense,” id., so aiding and abetting a
crime has the exact same elements as the principal offense. Because there are no new elements on which the
categorical approach can operate, it is impossible for
the analysis of aiding and abetting a crime to come out
differently than the principal crime. Therefore, aiding

4

“Whoever commits an offense against the United States or
aids, abets, counsels, commands, induces or procures its commission, is punishable as a principal.” 18 U.S.C. § 2(a).

22a
and abetting a crime of violence is also categorically a
crime of violence.5
We also note that this brings us in line with our sister circuits that have decided this issue. See United
States v. Richardson, 948 F.3d 733, 741-42 (6th Cir.
2020) (“There is no distinction between aiding and abetting the commission of a crime and committing the
principal offense. Aiding and abetting is simply an alternative theory of liability indistinct from the substantive crime.”); United States v. Garcia-Ortiz, 904 F.3d
102, 109 (1st Cir. 2018); United States v. Deiter, 890
F.3d 1203, 1214-16 (10th Cir. 2018) (explaining that
“aiding and abetting is not an independent crime,” id. at
1214 (citation omitted)); In re Colon, 826 F.3d 1301,
1305 (11th Cir. 2016) (explaining that “the acts of the
principal become those of the aider and abettor as a
matter of law” (citation omitted)); see also United
States v. McKelvey, 773 F. App’x 74, 75 (3d Cir. 2019);
United States v. Grissom, 760 F. App’x 448, 454 (7th
Cir. 2019). We agree with our sister circuits and conclude that aiding and abetting Hobbs Act robbery is a
valid predicate under § 924(c)’s force clause.
C.
Having determined that the district court did instruct the jury on a valid predicate for the § 924(c)
charges, we now return to the third prong of Olano.
The defendant contends that we must use the modified
5

This is unlike attempted Hobbs Act robbery, which is not a
crime of violence because it adds an element the Government must
prove—“the defendant took a substantial step toward the completion of Hobbs Act robbery that strongly corroborates the intent to
commit the offense”—and that new element can be satisfied by a
“substantial step” that is not violent. United States v. Taylor, 979
F.3d 203, 207-08 (4th Cir. 2020).

23a
categorical approach to determine what the predicate
crime was for his § 924(c) charge, and because we cannot know whether the jury convicted him of Hobbs Act
robbery conspiracy (an invalid predicate) or aiding and
abetting Hobbs Act robbery (a valid predicate), we
must vacate the conviction.
This fundamentally misunderstands what the categorical approach accomplishes and the nature of our inquiry under plain error review. The purpose of the categorical (and modified categorical) approach is not to
determine what the predicate was—a factual question—but rather whether a particular predicate meets
the requirements of a “crime of violence”—a purely legal question. See Descamps, 570 U.S. at 257-58 (explaining the categorical and modified categorical approaches). And, under that approach, we already know
that conspiracy does not count and aiding and abetting
does. With that knowledge, the third prong of the plain
error inquiry is whether the inclusion of the improper
theory of guilt “affected the outcome of the district
court proceedings.” Olano, 507 U.S. at 734. Unlike the
determination of whether a criminal offense is a “crime
of violence,” this requires a record-intensive factual inquiry.
Our precedent mandates this very approach. In
fact, instructional errors have for over one hundred
years been a classic example of the kind of error subject to plain and harmless error review. See, e.g.,
Holmgren v. United States, 217 U.S. 509, 522-23 (1910)
(considering prejudice to defendant in refusing to reverse an unpreserved jury instruction error). In United States v. Robinson, 627 F.3d 941 (4th Cir. 2010), we
reviewed a § 924(c) conviction with one proper and one
improper jury instruction on plain error. See id. at 953.
We held that the defendant bears the burden of show-

24a
ing “ ‘ that the erroneous instruction given resulted in
his conviction,’ not merely that it was impossible to tell
under which prong the jury convicted.” Id. at 954
(quoting United States v. Hastings, 134 F.3d 235, 24344 (4th Cir. 1998)).
This clearly forecloses the inquiry defendant suggests—he argues that there is uncertainty as to which
theory (conspiracy or aiding and abetting) the jury
adopted when it found him guilty of the § 924(c) counts.
See Appellant Second Supplemental Br. at 9-13. He is
correct that we do not know for certain which theory of
guilt the jury accepted but fails to recognize that ambiguity is insufficient under plain error review. As we
have frequently explained, a showing of uncertainty as
to “whether the verdict returned by the jury rested
solely on the mis-instruction” does not meet the defendant’s burden of establishing actual prejudice under
the third Olano prong. Hastings, 134 F.3d at 243; see
also, e.g., Robinson, 627 F.3d at 954; United States v.
White, 405 F.3d 208, 224-25 (4th Cir. 2005) (holding the
same for uncertainty in whether pre-Booker sentencing
must be vacated post-Booker); United States v. Godwin, 272 F.3d 659, 680 (4th Cir. 2001) (holding the same
for uncertainty as to impact of district judge’s inappropriately hostile questioning of defense witness); United
States v. Stitt, 250 F.3d 878, 884 (4th Cir. 2001).
The appropriate inquiry is a “ ‘ case-specific and
fact-intensive’ determination.” Robinson, 627 F.3d at
956 (quoting Puckett v. United States, 556 U.S. 129, 142
(2009)). We have conducted this analysis countless
times without complication. See, e.g., United States v.
Collins, 982 F.3d 236, 241-42 (4th Cir. 2020) (finding no
prejudice in jury instruction on § 922(g) charge because
there was ample evidence that defendant knew “he had
been committed to a mental institution,” id. at 241);

25a
United States v. Reid, 523 F.3d 310, 315-16 (4th Cir.
2008) (looking at the facts to determine whether incorrect jury instruction prejudiced the defendant); United
States v. Myers, 280 F.3d 407, 414-15 (4th Cir. 2002)
(holding that overwhelming evidence at trial precluded
finding of prejudice from jury instruction error). And
the Supreme Court has mandated this typical harmless
(or plain) error analysis in the very “context of a jury
instructed on multiple theories of guilt, one of which is
improper” and one of which is proper. Hedgpeth v. Pulido, 555 U.S. 57, 61 (2008) (per curiam).
Considering the overwhelming weight of the evidence the government presented at trial, the defendant
cannot meet his burden of establishing that the outcome would have been different absent the improper
instruction. Through the use of historic cell site location data, the government established that Ali drove to
the robbery sites before the robberies occurred, that he
was at the sites during the robberies (and no other
time), and that he drove away from the sites after the
robberies. Furthermore, the data also showed Ali with
his co-defendants at the times those co-defendants said
the proceeds were distributed. Ali provided no evidence that calls into question the cellular data analysis.
This is strong proof that Ali did more than simply conspire to commit robberies but that he assisted their
commission.
The testimony from all four co-defendant witnesses
provided further detail as to the role that Ali played at
the locations the cell data place him. First, their testimony was consistent that Ali planned the crimes. See
J.A. 280, 282-84, 287 (Griffin); J.A. 393-95, 398, 400-01,
404 (Jacobs); J.A. 548-50, 556-57 (Frazier); J.A. 611, 61617 (Hassan). Second, he provided firearms and served
as a driver in the robberies. See J.A. 276, 278, 281, 285

26a
(Griffin); J.A. 549, 564-65 (Frazier); J.A. 611, 614-15, 617
(Hassan). Third, he helped Frazier steal the van for
and carried a firearm during the Brink’s robbery. See
J.A. 288, 292 (Griffin); J.A. 557-61 (Frazier). During the
Brink’s robbery, Ali took a bag of money from the truck
but dropped it while fleeing. See J.A. 292 (Griffin); see
also J.A. 194-96 (Brink’s security guard). Finally, after
each robbery, Ali determined how the spoils were split.
See J.A. 284-85, 294-95 (Griffin); J.A. 408 (Jacobs); J.A.
552, 569 (Frazier); J.A. 613, 618 (Hassan). All of this
unrebutted evidence in the record supports a finding
that Ali aided and abetted the robberies. Thus, we conclude that the improper instruction did not affect the
defendant’s substantial rights.
Since the defendant failed to show an abridgment
of his substantial rights, there is no need to conduct the
exercise of discretion analysis under the fourth Olano
prong. See United States v. Wallace, 515 F.3d 327, 333
(4th Cir. 2008).
V.
Ali brought three different claims on appeal, and
we have conscientiously reviewed each one. None are
meritorious. It is noteworthy that he has generally
misunderstood the applicable standard of review and
requested we undertake a de novo examination of the
district court’s decisions. But one of the key responsibilities of an appellate court is to look at each alleged
error through the appropriate lens. Plain error review
not only encourages timely objections from trial counsel
so that no error, plain or otherwise, occurs. It also allows appellate courts not to miss the forest for the
trees. It allows us to sense from some remove that
which really matters. So recognized England’s great
blind poet, who understood that, despite his lack of vi-

27a
sion, his talents were not useless. See John Milton, On
His Blindness (1655). Generations later, we know that
he could see more of the human condition than many a
sighted man. See generally John Milton, Paradise Lost
(1667).
Stepping back, two things are clear. First, Ali has
only unsubstantiated assertions that his trial went
awry. Second, the district court endeavored diligently
and successfully to conduct a fair trial and ensure justice was done. All in all, a just result was reached and
we reject Ali’s invitation to order a redo of this sound
proceeding. As such, the judgment of the district court
is
AFFIRMED.

29a
APPENDIX B
UNITED STATES DISTRICT COURT
MIDDLE DISTRICT OF NORTH CAROLINA
Case Number: 1:14-CR-362-1
USM Number: 30380-057
Jones Pharr Byrd, Defendant’s Attorney
UNITED STATES OF AMERICA,
v.
HASSAN SHARIF ALI,
Filed July 10, 2015
JUDGMENT IN A CRIMINAL CASE

THE DEFENDANT:
☐ pleaded guilty to count(s)
☐ pleaded nolo contendere to count(s) _____ which
was accepted by the court.
☒ was found guilty on count(s) 1-9 after a plea of not
guilty.
The defendant is adjudicated guilty of these offenses:
Title &
Section

Nature of
Offense

Offense
Ended

18:1951(a)
and 2

Interference
with Commerce

July 7, 2013

Count
1

30a
by Robbery
18:924(c)(1)
(A)(ii) and 2

Carrying or Using a Firearm
During a Crime
of Violence

July 7, 2013

2

18:1951(a)
and 2

Interference
with Commerce
by Robbery

July 15, 2013

3

18:924(c)(1)
(A)(ii) and 2

Carry or Using
a Firearm During a Crime of
Violence

July 15, 2013

4

18:1951(a)
and 2

Interference
with Commerce
by Robbery

July 20, 2013

5

18:924(c)(1)
(A)(ii) and 2

Carry or Using
a Firearm During a Crime of
Violence

July 20, 2013

6

18:1951(a)
and 2

Interference
with Commerce
b Robbery

July 25, 2013

7

18:924(c)(1)
(A)(ii) and 2

Carry or Using
a Firearm During a Crime

July 25, 2013

8

18:922(g)(1)
and 924(a)(2)

Possession of a
July 25, 2013
Firearm by a
Convicted Felon

9

The defendant is sentenced as provided in pages 2
through 6 of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.

31a
☐ The defendant has been found not guilty on
count(s)
☐ Count(s)
dismissed on the motion of the United
States.
IT IS ORDERED that the defendant shall notify
the United States Attorney for this district within 30
days of any change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed by this judgment are fully paid. If
ordered to pay restitution, the defendant shall notify
the court and United States attorney of any material
change in the defendant’s economic circumstances.
June 29, 2015
Date of Imposition of Judgment
[handwritten signature]
Signature of Judge
Catherine C. Eagles, United States
District Judge
Name & Title of Judge
July 10, 2015
Date

32a
IMPRISONMENT
The defendant is hereby committed to the custody
of the United States Bureau of Prisons to be imprisoned for a total term of 1195 months.
[235 months each as to Counts 1, 3, 5 and 7 to run
concurrent to each other; 60 months on Count 2 to
run consecutive to all other counts; 300 months on
Count 4 to run consecutive to Count 2; 300 months
on Count 6 to run consecutive to Count 4; 300
months on Count 8 to run consecutive to Count 6;
120 months on Count 9 to run concurrent with
Counts 1, 3, 5 and 7]
☒ The court makes the following recommendations to
the Bureau of Prisons: defendant be housed in a Bureau of Prisons facility as close as possible to his place
of residence in North Carolina, subject to the recommendation that he not to be housed with co-defendants.
☒ The defendant is remanded to the custody of the
United States Marshal.
☐ The defendant shall surrender to the United States
Marshal for this district.
☐ at __________ am/pm on __________ .
☐ as notified by the United States Marshal.
☐ The defendant shall surrender for service of sentence at the institution designated by the Bureau of
Prisons:
☐ before 2 pm on .
☐ as notified by the United States Marshal.

33a
☐ as notified by the Probation or Pretrial Services Office.
RETURN
I have executed this judgment as follows:
Defendant delivered on ___________________ to
_____________________ at _________________________,
with a certified copy of this judgment.
UNITED STATES MARSHAL
BY

DEPUTY UNITED STATES MARSHAL

34a
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall
be on supervised release for a term of five (5) years.
[Three (3) years on Counts 1, 3, 5, 7 and 9 and Five (5)
years on Counts 2, 4, 6 and 8 to run concurrently)
The defendant must report to the probation office
in the district to which the defendant is released within
72 hours of release from the custody of the Bureau of
Prisons.
The defendant shall not commit another federal, state,
or local crime.
The defendant shall not unlawfully possess a controlled
substance. The defendant shall refrain from any unlawful use of a controlled substance. The defendant shall
submit to one drug test within 15 days of release from
imprisonment and at least two periodic drug tests
thereafter, as determined by the court.
☐ The above drug testing condition is suspended
based on the court’s determination that the defendant poses a low risk of future substance abuse.
(Check, if applicable.)
☒ The defendant shall not possess a firearm, destructive device, or any other dangerous weapon.
(Check, if applicable.)
☒ The defendant shall cooperate in the collection of
DNA as directed by the probation officer. (Check,
if applicable.)
☐ The defendant shall comply with the requirements
of the Sex Offender Registration and Notification
Act (42 U.S.C § 16901, et seq.) as directed by the
probation officer, the Bureau of Prisons, or any

35a
state sex offender registration agency in which he
or she resides, works, is a student, or was convicted
of a qualifying offense. (Check, if applicable.)
☐ The defendant shall participate in an approved
program for domestic violence. (Check, if applicable.)
If this judgment imposes a fine or a restitution, it is
a condition of supervised release that the defendant
pay in accordance with the Schedule of Payments
sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well
as with any additional conditions on the attached
page.
STANDARD CONDITIONS OF SUPERVISION
1) the defendant shall not leave the judicial district
without the permission of the court or probation officer;
2) the defendant shall report to the probation officer
in a manner and frequency directed by the court or
probation officer;
3) the defendant shall answer truthfully all inquiries
by the probation officer and follow the instructions
of the probation officer;
4) the defendant shall support his or her dependents
and meet other family responsibilities;
5) the defendant shall work regularly at a lawful occupation unless excused by the probation officer for
schooling, training, or other acceptable reasons;

36a
6) the defendant shall notify the probation officer at
least ten days prior to any change in residence or
employment;
7) the defendant shall refrain from excessive use of
alcohol and shall not purchase, possess, use, distribute, or administer any controlled substance or
any paraphernalia related to any controlled substances, except as prescribed by a physician;
8) the defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
9) the defendant shall not associate with any persons
engaged in criminal activity, and shall not associate
with any person convicted of a felony unless granted permission to do so by the probation officer;
10) the defendant shall permit a probation officer to
visit him or her at any time at home or elsewhere
and shall permit confiscation of any contraband observed in plain view of the probation officer;
11) the defendant shall notify the probation officer
within seventy-two hours of being arrested or
questioned by a law enforcement officer;
12) the defendant shall not enter into any agreement to
act as an informer or a special agent of a law enforcement agency without the permission of the
court;
13) as directed by the probation officer, the defendant
shall notify third parties of risks that may be occasioned by the defendant’s criminal record or personal history or characteristics, and shall permit
the probation officer to make such notifications and
to confirm the defendant’s compliance with such
notification requirement.

37a
SPECIAL CONDITIONS OF SUPERVISION
The defendant shall submit to substance abuse testing,
at any time, as directed by the probation officer. The
defendant shall cooperatively participate in a substance
abuse treatment program, which may include drug
testing and inpatient/residential treatment, and pay for
treatment services, as directed by the probation officer.
During the course of treatment, the defendant shall abstain from the use of alcoholic beverages.
The defendant shall provide any requested financial information to the probation officer.
The defendant shall notify the probation officer of any
material change in his economic circumstances that
might affect his ability to pay restitution, a fine or the
special assessment.
The defendant shall submit his person, residence, office,
vehicle, or any property under his control to a warrantless search. Such a search shall be conducted by a
United States Probation Officer at a reasonable time
and in a reasonable manner, based upon reasonable
suspicion of contraband or evidence of a violation of a
condition of release. Failure to submit to such a search
may be grounds for revocation; the defendant shall
warn any residents that the premises may be subject to
searches.

38a
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet
6.
TOTALS

Assessment

Fine

Restitution

$900.00

$.00

$74,464.00

☐ The determination of restitution is deferred until
__________. An Amended Judgment in a Criminal
Case (AO 245C) will be entered after such determination.
☒ The defendant must make restitution (including
community restitution) to the following payees in
the amount listed below.
If the defendant makes a partial payment, each
payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority
order or percentage payment column below. However, pursuant to 18 U.S.C. § 3664(i), all nonfederal
victims must be paid before the United States is
paid.
Restitution of $74,464.00 to:
BRINK’S INCORP
$68,651.00
FOOD LION LLC
$3,042.00
JENNY’S BEATY SALON
$2,771.00
☐ Restitution amount ordered pursuant to plea
agreement $

39a
☐ The defendant must pay interest on restitution and
a fine of more than $2,500, unless the restitution or
fine is paid in full before the fifteenth day after the
date of the judgment, pursuant to 18 U.S.C.
§ 3612(f). All of the payment options on Sheet 6
may be subject to penalties for delinquency and default, pursuant to 18 U.S.C. § 3612(g).
☒ The court determined that the defendant does not
have the ability to pay interest and it is ordered
that:
☒ the interest requirement is waived for the
☐ fine
☒ restitution.
☐ the interest requirement for the
☐ fine
☐ restitution is modified as follows:

40a
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as
follows:
A☒

Lump sum payment of $900.00 due immediately, balance due
☐ not later than ______ , or
☒ in accordance with ☐ C, ☒ D, ☐ E, or
☒ F below; or

B☐

Payment to begin immediately (may be combined with ☐ C, ☐ D, or ☐ F below); or

C☐

Payment in equal ____ (e.g. weekly, monthly,
quarterly) installments of $_____ over a period
of ______ (e.g., months or years), to commence
_____ (e.g., 30 or 60 days) after the date of this
judgment; or

D☒

Payment in equal monthly installments of
$100.00, to commence 60 days after release
from imprisonment to a term of supervision; or

E☐

Payment during the term of supervised release
will commence within _____ (e.g., 30 or 60 days)
after release from imprisonment. The court
will set the payment plan based on an assessment of the defendant’s ability to pay at that
time; or

F☒

Special instructions regarding the payment of
criminal monetary penalties:
To the extent the defendant cannot immediately comply, the Court will recommend he participate in the Inmate Financial Responsibility
Program.

41a
Unless the court has expressly ordered otherwise, if
this judgment imposes imprisonment, payment of criminal monetary penalties is due during imprisonment.
All criminal monetary penalties, except those payments
made through the Federal Bureau of Prisons’ Inmate
Financial Responsibility Program, are to be made to
the Clerk of Court, United States District Court for the
Middle District of North Carolina, 324 West Market
Street, Greensboro, NC 27401-2544, unless otherwise
directed by the court, the probation officer, or the
United States Attorney. Nothing herein shall prohibit
the United States Attorney from pursuing collection
of outstanding criminal monetary penalties.
The defendant shall receive credit for all payments
previously made toward any criminal monetary penalties imposed.
☒ Joint and Several
Defendant and Co-Defendant Names, Case Numbers (including defendant number), Total Amount,
Joint and Several Amount, and corresponding payee, if appropriate.
John Nathaniel Griffin, Jr.
Hassan Sheikuna Hassan
Kelvin Paul Jacobs, Jr.
Rodney Alan Frazier

1:14CR362-2
1:14CR362-3
1:14CR362-4
1:14CR362-5

☐ The defendant shall pay the cost of prosecution.
☐ The defendant shall pay the following court cost(s):
☒ The defendant shall forfeit the defendant’s interest
in the following property to the United States:
firearm seized shall be destroyed.

42a
Payments shall be applied in the following order: (1)
assessment; (2) restitution principal; (3) restitution
interest, (4) fine principal, (5) fine interest, (6)
community restitution, (7) penalties, and (8) costs,
including cost of prosecution and court costs.

43a
APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 15-4433
(1:14-cr-00362-CCE-1)
UNITED STATES OF AMERICA,
Plaintiff-Appellee,
v.
HASSAN SHARIF ALI, a/k/a Big Hassan,
Defendant-Appellant.
FILED: April 30, 2021
ORDER
The court denies the petition for rehearing and rehearing en banc. No judge requested a poll under Fed.
R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Wilkinson, Judge Niemeyer, and Judge Thacker.
For the Court
/s/ Patricia S. Connor, Clerk

45a
APPENDIX D
RELEVANT STATUTORY PROVISIONS
18 U.S.C. § 924(c)
§924. Penalties
*

*

*

(c)(1)(A) Except to the extent that a greater minimum sentence is otherwise provided by this subsection
or by any other provision of law, any person who, during and in relation to any crime of violence or drug trafficking crime (including a crime of violence or drug trafficking crime that provides for an enhanced punishment
if committed by the use of a deadly or dangerous weapon or device) for which the person may be prosecuted in
a court of the United States, uses or carries a firearm,
or who, in furtherance of any such crime, possesses a
firearm, shall, in addition to the punishment provided
for such crime of violence or drug trafficking crime—
(i) be sentenced to a term of imprisonment of
not less than 5 years;
(ii) if the firearm is brandished, be sentenced to
a term of imprisonment of not less than 7 years;
and
(iii) if the firearm is discharged, be sentenced to
a term of imprisonment of not less than 10 years.
(B) If the firearm possessed by a person convicted
of a violation of this subsection—
(i) is a short-barreled rifle, short-barreled shotgun, or semiautomatic assault weapon, the person
shall be sentenced to a term of imprisonment of not
less than 10 years; or

46a
(ii) is a machinegun or a destructive device, or
is equipped with a firearm silencer or firearm muffler, the person shall be sentenced to a term of imprisonment of not less than 30 years.
(C) In the case of a violation of this subsection that
occurs after a prior conviction under this subsection has
become final, the person shall—
(i) be sentenced to a term of imprisonment of
not less than 25 years; and
(ii) if the firearm involved is a machinegun or a
destructive device, or is equipped with a firearm silencer or firearm muffler, be sentenced to imprisonment for life.
(D) Notwithstanding any other provision of law—
(i) a court shall not place on probation any person convicted of a violation of this subsection; and
(ii) no term of imprisonment imposed on a person under this subsection shall run concurrently
with any other term of imprisonment imposed on
the person, including any term of imprisonment
imposed for the crime of violence or drug trafficking crime during which the firearm was used, carried, or possessed.
(2) For purposes of this subsection, the term “drug
trafficking crime” means any felony punishable under
the Controlled Substances Act (21 U.S.C. 801 et seq.),
the Controlled Substances Import and Export Act (21
U.S.C. 951 et seq.), or chapter 705 of title 46.
(3) For purposes of this subsection the term “crime
of violence” means an offense that is a felony and—

47a
(A) has as an element the use, attempted use,
or threatened use of physical force against the person or property of another, or
(B) that by its nature, involves a substantial
risk that physical force against the person or property of another may be used in the course of committing the offense.
(4) For purposes of this subsection, the term “brandish” means, with respect to a firearm, to display all or
part of the firearm, or otherwise make the presence of
the firearm known to another person, in order to intimidate that person, regardless of whether the firearm is
directly visible to that person.
(5) Except to the extent that a greater minimum
sentence is otherwise provided under this subsection,
or by any other provision of law, any person who, during and in relation to any crime of violence or drug trafficking crime (including a crime of violence or drug trafficking crime that provides for an enhanced punishment
if committed by the use of a deadly or dangerous weapon or device) for which the person may be prosecuted in
a court of the United States, uses or carries armor
piercing ammunition, or who, in furtherance of any such
crime, possesses armor piercing ammunition, shall, in
addition to the punishment provided for such crime of
violence or drug trafficking crime or conviction under
this section—
(A) be sentenced to a term of imprisonment of
not less than 15 years; and
(B) if death results from the use of such ammunition—
(i) if the killing is murder (as defined in section 1111), be punished by death or sentenced

48a
to a term of imprisonment for any term of
years or for life; and
(ii) if the killing is manslaughter (as defined
in section 1112), be punished as provided in section 1112.
*

*

*

49a
18 U.S.C. § 1951(a)
§1951. Interference with commerce by threats or violence
(a) Whoever in any way or degree obstructs, delays, or affects commerce or the movement of any article or commodity in commerce, by robbery or extortion
or attempts or conspires so to do, or commits or threatens physical violence to any person or property in furtherance of a plan or purpose to do anything in violation
of this section shall be fined under this title or imprisoned not more than twenty years, or both.
*

*

*

